Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




THE MEDICARE CONTRACTOR’S
 PAYMENTS IN JURISDICTION 5
FOR FULL VIALS OF HERCEPTIN
   WERE OFTEN INCORRECT


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      October 2012
                                                      A-07-12-04187
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Herceptin, also known as trastuzumab, is a Medicare-covered drug used to treat breast cancer
that has spread to other parts of the body. Herceptin comes in a multiuse vial of 440 milligrams.
A multiuse vial contains more than one dose of medication and is labeled as such by the
manufacturer. The manufacturer supplies the drug in a carton containing a multiuse vial of 440
milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection (BWFI)
containing a solution of 1.1 percent benzyl alcohol as a preservative. A vial of Herceptin, when
reconstituted with BWFI and stored properly, can be used for up to 28 days.

For multiuse vials, Medicare pays only for the amount administered to a beneficiary and does not
pay for any discarded drug. Therefore, a payment for an entire multiuse vial is likely to be an
overpayment. This audit is part of a nationwide review of the drug Herceptin. The pilot of these
reviews found that the Medicare contractor’s payments for full vials of Herceptin were often
incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over, people with disabilities, and people with permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

As part of Medicare contracting reform, Wisconsin Physicians Service Insurance Corporation
(WPS) became the Medicare contractor for Jurisdiction 5 in four States—Iowa, Kansas,
Missouri, and Nebraska—and assumed full responsibility for Jurisdiction 5 in June 2008.
During our audit period (January 1, 2008, through December 31, 2010), 5,964 line items for
Herceptin totaling approximately $9.2 million were processed in these States. Of these 5,964
line items, 665 line items totaling approximately $1.75 million had 44, 88, or 132 units of service
that represented billings that were equivalent to entire multiuse vials. In this audit, we did not
review entire claims; rather, we reviewed the specific line items within the claims that met these
criteria.

OBJECTIVE

Our objective was to determine whether Medicare payments that WPS made to providers for full
vials of Herceptin were correct.

SUMMARY OF FINDINGS

Most Medicare payments that WPS made to providers for full vials of Herceptin in the line items
we reviewed were incorrect. Specifically, of the 665 selected line items, 540 (81 percent) were
incorrect and included overpayments totaling $635,023, or more than one-third of total dollars
reviewed. These providers had not identified or refunded these overpayments by the beginning
of our audit. The 125 remaining line items were correct.

On each of the 540 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vial(s), each containing 440 milligrams of Herceptin, rather than reporting


                                                  i
the units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. WPS made these incorrect payments because neither the Fiscal
Intermediary Standard System nor CMS’s Common Working File had sufficient edits in place
during our audit period to prevent or detect the overpayments.

RECOMMENDATIONS

We recommend that WPS:

   •   recover the $635,023 in identified overpayments,

   •   implement or update system edits that identify for review multiuse-vial drugs that are
       billed with units of service equivalent to the dosage of an entire vial(s), and

   •   use the results of this audit in its provider education activities.

WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION COMMENTS

In written comments on our draft report, WPS generally concurred with our recommendations.
With respect to our first recommendation, WPS stated that it was reconciling the overpayment
amount. With respect to our other two recommendations, WPS described corrective actions that
it had taken or planned to take.

WPS’s comments are included in their entirety as the Appendix.




                                                  ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors ...................................................................................................... 1
        Claims for Drugs ............................................................................................................. 1
        Herceptin .........................................................................................................................2
        Wisconsin Physicians Service Insurance Corporation .................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope ............................................................................................................................... 2
        Methodology ...................................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................. 4

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED ....................... 4

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 5

      RECOMMENDATIONS ...................................................................................................... 5

      WISCONSIN PHYSICIANS SERVICE INSURANCE
       CORPORATION COMMENTS ....................................................................................... 5

APPENDIX

      WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION COMMENTS




                                                                      iii
                                                INTRODUCTION

BACKGROUND

Herceptin 1 is a Medicare-covered drug used to treat breast cancer that has spread to other parts of
the body. Herceptin comes in a multiuse vial of 440 milligrams. A multiuse vial contains more
than one dose of medication and is labeled as such by the manufacturer. However, for multiuse
vials, Medicare pays only for the amount administered to a beneficiary and does not pay for any
discarded amounts. This audit is part of a nationwide review of the drug Herceptin. The pilot of
these reviews 2 found that the Medicare contractor’s payments for full vials of Herceptin were
often incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over, people with disabilities, and people with permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services. 3 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ claims for outpatient services, the
Medicare contractors use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF). The CWF can detect certain improper payments during prepayment
validation.

Claims for Drugs

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains line items that detail each provided service. Providers should
use the appropriate Healthcare Common Procedure Coding System (HCPCS) code for the drug
administered and report units of service in multiples of the units shown in the HCPCS narrative
description. 4 Multiuse vials are not subject to payment for discarded amounts of the drug.


1
    Herceptin is Genentech’s registered trademark for the drug trastuzumab.
2
    Report number A-05-10-00091, issued July 10, 2012.
3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
4
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                           1
Multiuse vials are typically used for more than one date of service and can be stored for up to 28
days. Therefore, a payment for an entire multiuse vial is likely to be an overpayment.

Herceptin

Herceptin is a monoclonal antibody, one of a group of drugs designed to attack specific cancer
cells. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent of benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.
When a patient is allergic to benzyl alcohol, sterile water without a preservative should be used
and any unused portion of the mixture discarded. The HCPCS code for Herceptin is J9355, with
a narrative description of “injection, trastuzumab 10mg.” An entire multiuse vial of 440
milligrams of reconstituted Herceptin when administered would be reported as 44 units for
Medicare billing.

Wisconsin Physicians Service Insurance Corporation

As part of Medicare contracting reform, Wisconsin Physicians Service Insurance Corporation
(WPS) became the Medicare contractor for Jurisdiction 5 in four States—Iowa, Kansas,
Missouri, and Nebraska—and assumed full responsibility for Jurisdiction 5 in June 2008.
During our audit period (January 1, 2008, through December 31, 2010), 5,964 line items for
Herceptin were processed in these States.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments that WPS made to providers for full
vials of Herceptin were correct.

Scope

During our audit period, WPS processed 5,964 outpatient Part B service line items of Herceptin
totaling approximately $9.2 million. Of these 5,964 line items, 665 line items totaling
approximately $1.75 million had 44, 88, or 132 units of service that represented billings
equivalent to entire multiuse vials.

We limited our review of WPS’s internal controls to those that were applicable to the selected
payments because our objective did not require an understanding of all internal controls over the
submission and processing of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from the National Claims History file, but
we did not assess the completeness of the file.




                                                2
Our fieldwork was conducted from November 2011 through May 2012 and included contacting
WPS in Omaha, Nebraska, and the 34 providers in Iowa, Kansas, Missouri, and Nebraska that
received the selected Medicare payments.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   used CMS’s National Claims History file to identify outpatient line items in which
       payments were made for HCPCS code J9355 (Herceptin);

   •   identified 665 line items with unit counts of 44, 88, or 132, totaling approximately
       $1.75 million, that WPS paid to 34 providers;

   •   contacted the 34 providers that received Medicare payments associated with the selected
       line items to determine whether the information conveyed in the selected line items was
       correct and, if not, why the information was incorrect;

   •   reviewed documentation that the providers furnished to verify whether each selected line
       item was billed correctly; specifically, we reviewed documentation to support:

           o the medical condition of the beneficiary in determining the necessity of the
             medication,

           o a physician’s orders for medication,

           o that the medication was administered, and

           o the type of solution used to reconstitute the Herceptin (BWFI containing
             1.1 percent benzyl alcohol or sterile water);

   •   coordinated the calculation of overpayments with WPS; and

   •   discussed the results of our review with WPS officials on July 10, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                3
                               FINDINGS AND RECOMMENDATIONS

Most Medicare payments that WPS made to providers for full vials of Herceptin in the line items
we reviewed were incorrect. Specifically, of the 665 selected line items, 540 (81 percent) were
incorrect and included overpayments totaling $635,023, or more than one-third of total dollars
reviewed. These providers had not identified or refunded these overpayments by the beginning
of our audit. The 125 remaining line items were correct.

On each of the 540 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vial(s), each containing 440 milligrams of Herceptin, rather than reporting
the units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. WPS made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the CWF had sufficient edits in place during our audit period
to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “[P]roviders must use HCPCS codes … for most outpatient services.”
According to chapter 17, section 70, of the Manual, when a provider is billing for a drug
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg. [milligrams], and
200 mg are provided, units are shown as 4 ….”

Chapter 17, section 40, of the Manual also states: “Multi-use vials are not subject to payment for
discarded amounts of drug ….” Finally, chapter 1, section 80.3.2.2, of the Manual states: “In
order to be processed correctly and promptly, a bill must be completed accurately.”

OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED

Providers reported incorrect units of service on 540 (81 percent) of the 665 line items reviewed,
resulting in overpayments totaling $635,023 (36 percent) of the $1.75 million total dollars
reviewed. Providers billed Medicare for the entire vial containing 440 milligrams of Herceptin,
rather than billing only for the amount actually administered.

For example, one provider administered 150 milligrams of Herceptin to a patient and billed for
44 units of service (440 milligrams). Based on the HCPCS description of Herceptin (injection,
trastuzumab, 10 milligrams), the number of units to be reported for 150 milligrams is 15. 5 This
error occurred on 62 separate occasions for 1 patient; as a result, WPS paid the provider
$136,006 when it should have paid $46,366, an overpayment of $89,640.



5
  If the drug dose used in the care of a patient is not a multiple of the HCPCS code dosage descriptor, the provider
rounds to the next highest unit based on the HCPCS long descriptor to report the dose.



                                                          4
CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors and to billing systems that
could not prevent or detect the incorrect billing of units of service. WPS made these incorrect
payments because neither the Fiscal Intermediary Standard System nor the CWF had sufficient
edits in place to prevent or detect the overpayments. In effect, CMS relied on beneficiaries to
review their Medicare Summary Notice 6 and disclose any overpayments.

RECOMMENDATIONS

We recommend that WPS:

    •    recover the $635,023 in identified overpayments,

    •    implement or update system edits that identify for review multiuse-vial drugs that are
         billed with units of service equivalent to the dosage of an entire vial(s), and

    •    use the results of this audit in its provider education activities.

WISCONSIN PHYSICIANS SERVICE INSURANCE
CORPORATION COMMENTS

In written comments on our draft report, WPS generally concurred with our recommendations.
With respect to our first recommendation, WPS stated that it was reconciling the overpayment
amount. With respect to our other two recommendations, WPS described corrective actions that
it had taken or planned to take.

WPS’s comments are included in their entirety as the Appendix.




6
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.



                                                         5
APPENDIX
                                                                                                                  Page 1 of 2


                APPENDIX: WISCONSIN PHYSICIANS SERVICE
                       INSURANCE CORPORATION COMMENTS




         CNIS /
                                                                                              Medicare

August 24,2012


Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
Office of Audit Services, Region VII
601 East 121h Street, Room 0429
Kansas City, MO 64106

RE: Office of Inspector General (OIG) Draft Report - A-07-12-04187

Dear Mr. Cogley,
                                                                                                             5 for
This letter is in response to the OIG draft report titled The Medicare Contractor's Payments in Jurisdiction
Full Vials of  Herceptin  Were  Often Incorrect.

OIG reviewed 665 data lines with units of service of 44, 88 or 132 from Medicare Part A outpatient claims
                                                                                                          s
processed by Wisconsin Physicians Service (WPS). Of these, 540 lines from claims included overpayment
totaling $635,023.
                                                                                                                 that
The OIG report stated the providers attributed the incorrect payments to clerical errors and to billing systems
                                                                                                           because
could not prevent or detect the incorrect billing ofunits ofservice. WPS made these incorrect payments
                                                                                                         in place
neither the Fiscal Intermediary Standard System nor CMS' Common Working File had sufficient edits
during our audit period to prevent or detect the overpayments.

OIG Recommenda tions to WPS:
   • recover the $635,023 in identified overpayments,
                                                                                                              of
   • implement or update system edits that identify for review multiuse-vial drugs that are billed with units
      service equivalemto the dosage ofan     entire vial(s), and
   • use the results ofthis audit in its provider education activities.

WPS Response to the OIG Recommendations:
  • WPS should recover the $635,023 in identified overpayments,
      o WPS is currently reconciling the latest OIG claims listing received to prior OIG claims listings
          associated with this OIG review in an effort to determine the fmal overpayment and recovery
          amounts.
  • WPS should implement or update system edits that identify for review mulituse-vial drugs that are billed
      with units ofservice equivalent to the dosage ofan entire vial(s),
      o WPS is currently evaluating the possible implementation and updating of system edits within the
          parameters of the FISS system.
  • WPS should use the results of this audit in its provider education activities
      o Currently, Part A Outreach educates hospital providers on the correct reporting of CPTIHCPCS codes
          and units of service for billing drugs. We state these are critical billing elements that must be
          reported correctly in order for the claim to process and pay accurately. As an additional note, we
          advise the provider that reporting units accurately ensures correct payment, and incorrect reporting of
          units may result in significant underpayments or overpayments and require a claim adjustment when
          and if the error is found.
                         Wlscohsin Physidans Service Insurance Corporation serving as a CMS Medicare Contractor

llfP S.
  HEAL..TH INSURANCE
                         P.O. Box 1787 • Madison, WI 53701 • Phone 608-221-4711
                                                                                                                Page 2 of 2






        o    Additionally, we are in the process of evaluating our education content to determine the need to
             expand our volume ofbilling examples and the inclusion ofHerceptin specifically.

If you have any questions or need additional information, please contact me at 402-995-0443.

Sincerely,


A~aq
MarkDeFoil
Director, Contract Coordination

cc:     John Phelps, CMS
        Lisa Goschen, CMS
        Joni Jones, CMS
        Pamela Bragg, CMS
        Debra Keasling, OJG
